HHS/OIG, Audit -"Review of the District of Columbia's Medicaid Drug Rebate Program,"(A-03-03-00205)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the District of Columbia's Medicaid Drug Rebate Program," (A-03-03-00205)
July 15, 2003
Complete
Text of Report is available in PDF format (640 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to evaluate whether the District of Columbia's Medical Assistance Administration (MAA)
had established adequate accountability and internal controls over the Medicaid drug rebate program.  Generally, MAA
had established adequate accountability and internal controls over the Medicaid drug rebate program using Affiliated Computer
Services (ACS) as its fiscal agent.  However, we found that the (1) fiscal year 2002 Centers for Medicare & Medicaid
Services 64.9R reports were not accurate and included incomplete data; and (2) endorsement stamp used by ACS on drug rebate
checks was too generic and did not provide for proper security over the checks.